    ~SUVJC'.r.l.r:
                                                                                                     Office of Inspector General
(      ~                DEPARTMENT OF HEALm & HUMAN SERVICES                                         Office of Audit Services



\~r-~~"'.r.l:                                                                                        Region Vll
                                                                                                     601 East 121h Street
                                                                                                     Room 0429
                     JUL 1 02009                                                                     Kansas City, Missouri 64106



                     Report Number: A-07-08-00272

                     Mr. Carlos Gonzalez, CPA
                     Executive Vice-President ofInfrastructure and Chief Financial Officer
                     Cooperativa de Seguros de Vida de Puerto Rico
                     400 Americo Miranda Avenue
                     Rio Piedras, Puerto Rico 00927

                     Dear Mr. Gonzalez:

                     Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                     General (OIG), final report entitled "Review of Pension Costs Claimed for Medicare
                     Reimbursement by Cooperativa de Seguros de Vida de Puerto Rico, for Fiscal Years 1996
                     Through 2006." We will forward a copy of this report to the HHS action official noted on the
                     following page for review and any action deemed necessary.

                     The HHS action official will make final determination as to actions taken on all matters reported.
                     We request that you respond to this official within 30 days from the date ofthis letter. Your
                     response should present any comments or additional information that you believe may have a
                     bearing on the final determination.

                     Pursuant to the Freedom ofInformation Act, 5 U.S.c. § 552, OIG reports generally are made
                     available to the public to the extent that information in the report is not subject to exemptions in
                     the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                     If you have any questions or comments about this report, please do not hesitate to call me at
                     (816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
                     through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-08-00272
                     in all correspondence.

                                                                    Sincerely,


                                                                    ~Gb~
                                                            &v     Patrick J. Cogley
                                                                   Regional Inspector General
                                                                    for Audit Services


                     Enclosure
Page 2 – Mr. Carlos González, CPA


Direct Reply to HHS Action Official:

Ms. Deborah Taylor, Acting Director
Office of Financial Management (OFM)
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 



  REVIEW OF PENSION COSTS 

   CLAIMED FOR MEDICARE 

     REIMBURSEMENT BY 

 COOPERATIVA DE SEGUROS DE 

  VIDA DE PUERTO RICO, FOR 

        FISCAL YEARS 

     1996 THROUGH 2006 





                    Daniel R. Levinson

                     Inspector General 


                        July 2009

                      A-07-08-00272

                      Office of Inspector
                      Office of  nspector General
                                           eneral
                                         http://oig.hhs.gov
                                         http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
The mission
amended,     of protect
          is to the Office
                        theof  Inspector
                             integrity of General  (OIG), as
                                          the Department   ofmandated
                                                              Health andbyHuman
                                                                           Public Law   95-452,
                                                                                   Services      as
                                                                                             (HHS)
amended, isastowell
programs,       protect thehealth
                    as the   integrity
                                   andofwelfare
                                          the Department   of Health
                                                 of beneficiaries     and Human
                                                                  served  by thoseServices   (HHS)
                                                                                     programs.   This
programs,  as  well as the  health and  welfare  of beneficiaries served  by   those programs.
statutory mission is carried out through a nationwide network of audits, investigations, and     This
statutory mission  is carried out through   a nationwide  network
inspections conducted by the following operating components:       of  audits, investigations, and
inspections conducted by the following operating components:
Office of Audit Services
Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
The Office
audits with of
            its Audit Services
                own audit      (OAS)orprovides
                           resources             auditing
                                        by overseeing      services
                                                        audit work for HHS,
                                                                    done      either by
                                                                         by others.     conducting
                                                                                      Audits examine
audits with its own  audit resources or by overseeing   audit work  done by  others.  Audits
the performance of HHS programs and/or its grantees and contractors in carrying out their    examine
the performance   of HHS   programs  and/or its grantees  and contractors in carrying
respective responsibilities and are intended to provide independent assessments of HHS out their
respectiveand
programs   responsibilities
                operations. and areassessments
                            These   intended to help
                                                 provide  independent
                                                     reduce            assessments
                                                              waste, abuse,          of HHS ent and
                                                                            and mismanagem
programs  and   operations. These  assessments
promote economy and efficiency throughout HHS.  help reduce   waste, abuse, and  mismanagement   and
promote economy and efficiency throughout HHS.
Office of Evaluation and Inspections
Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
The Officeand
Congress,   of Evaluation  and Inspections
               the public with              (OEI)
                                timely, useful, andconducts  national evaluations
                                                    reliable information          to provide
                                                                         on significant      HHS,
                                                                                        issues.
Congress,  and the  public with timely, useful, and reliable information on significant
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,     issues.
These evaluations
efficiency,         focus on preventing
            and effectiveness            fraud, programs.
                               of departmental  waste, or abuse  and promoting
                                                            To promote  impact, economy,
                                                                                OEI reports also
efficiency, and effectiveness  of departmental  programs.   To  promote
present practical recommendations for improving program operations.     impact, OEI reports also
present practical recommendations for improving program operations.
Office of Investigations
Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
The Office
fraud       of Investigations
      and misconduct    related(OI)   conducts
                                 to HHS         criminal,
                                          programs,        civil, and
                                                      operations,  andadministrative
                                                                        beneficiaries.investigations
                                                                                         With          of
fraud and misconduct    related  to HHS   programs,   operations,  and  beneficiaries.   With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
investigators
actively      working with
         coordinating   in allthe
                               50Department
                                   States and the  Districtand
                                                of Justice  of Columbia,    OI utilizes
                                                                other Federal,          its resources
                                                                                State, and   local law by
actively coordinating
enforcement            withThe
              authorities.    the investigative
                                   Department of   Justice
                                                efforts of and  otherlead
                                                           OI often    Federal, State, and
                                                                           to criminal       local law
                                                                                        convictions,
enforcement   authorities.  The   investigative efforts of
administrative sanctions, and/or civil monetary penalties. OI  often  lead to criminal  convictions,
administrative sanctions, and/or civil monetary penalties.
Office of Counsel to the Inspector General
Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
The Officeadvice
rendering   of Counsel   to the Inspector
                  and opinions    on HHS General
                                           programs(OCIG)    provides and
                                                      and operations    general  legal services
                                                                             providing  all legalto OIG,
                                                                                                  support
rendering advice  and   opinions  on  HHS  programs   and operations    and  providing  all
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud andlegal support
for OIG’s
abuse casesinternal  operations.
             involving            OCIG represents
                         HHS programs,    including OIG
                                                     FalseinClaims
                                                             all civil andprogram
                                                                     Act,   administrative   fraud
                                                                                    exclusion,     and
                                                                                                 and civil
abuse cases
monetary     involving
          penalty        HHS
                    cases.     programs, including
                           In connection   with theseFalse  Claims
                                                       cases, OCIGAct,alsoprogram   exclusion,
                                                                           negotiates            and civil
                                                                                        and monitors
monetary integrity
corporate penalty cases.   In connection
                     agreements.           with these
                                     OCIG renders      cases, opinions,
                                                   advisory   OCIG also    negotiates
                                                                         issues         and monitors
                                                                                compliance     program
corporate integrity  agreements.     OCIG  renders advisory   opinions,  issues compliance
guidance, publishes fraud alerts, and provides other guidance to the health care industry      program
guidance, publishes   fraud  alerts, and provides other  guidance   to the
concerning the anti-kickback statute and other OIG enforcement authorities.health  care  industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Cooperativa de Seguros de Vida de Puerto Rico (COSVI) has administered Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) since 1970.

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that COSVI claimed for
Medicare reimbursement for fiscal years (FY) 1996 through 2006.

SUMMARY OF FINDING

COSVI claimed $99,244 of unallowable Medicare pension costs for FYs 1996 through 2006.
This overstatement occurred primarily because COSVI calculated pension expense using the
contributions to the pension plan instead of computing pension costs in accordance with CAS
412 and 413, as required by the Medicare contracts. In basing the pension expense on the
pension plan contributions, COSVI claimed $1,801,228 in Medicare reimbursement. We
calculated allowable pension costs for this period in accordance with CAS 412 and 413, as
required by the Medicare contracts, to be $1,701,984, a difference of $99,244.

RECOMMENDATION

We recommend that COSVI reduce its Final Administrative Cost Proposal (FACP) pension costs
by $99,244 or refund this amount to CMS.

AUDITEE COMMENTS

In written comments on our draft report, COSVI concurred with our recommendation. In
addition, COSVI stated that “[w]e are submitting evidence of $90,863 which was refunded to
CMS during the audit of Administrative Cost for the period October 1, 1984 to September 30,
1987. This amount will be offsetted against the unallowable pension cost of $99,244. The
difference will be reduced from our FY 2009 FACP.”

COSVI’s comments are included in their entirety as Appendix B.




                                                i
OFFICE OF INSPECTOR GENERAL RESPONSE

The refund adjustment of $90,863 referred to by COSVI is associated with FYs 1985 through
1987, a time period that is unrelated to this review. In addition, executed closing agreements
between CMS and COSVI have finalized pension costs for these FYs. For this reason, pension
costs for FYs 1985 through 1987 are not subject to further review or adjustment. Therefore, we
maintain that COSVI reduce its FY 1996 through 2006 FACP pension costs by $99,244 or
refund this amount to CMS.




                                               ii
                                                 TABLE OF CONTENTS 


                                                                                                                                   Page


INTRODUCTION......................................................................................................................1 


          BACKGROUND .............................................................................................................1         

              Cooperativa de Seguros de Vida de Puerto Rico .................................................1 

              Medicare Reimbursement of Pension Costs ........................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................1 

               Objective ..............................................................................................................1    

               Scope....................................................................................................................1   

               Methodology ........................................................................................................2        


FINDING AND RECOMMENDATION.................................................................................2 


          FEDERAL REQUIREMENTS........................................................................................2                     


          UNALLOWABLE PENSION COSTS CLAIMED ........................................................3 


          RECOMMENDATION ...................................................................................................3               


          AUDITEE COMMENTS.................................................................................................4                


          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................4 


APPENDIXES

          A – ALLOWABLE MEDICARE PENSION COSTS FOR COOPERATIVA DE

              SEGUROS DE VIDA DE PUERTO RICO FOR FISCAL YEARS 1996 

              THROUGH 2006 


          B – AUDITEE COMMENTS




                                                                   iii
                                                INTRODUCTION 


BACKGROUND

Cooperativa de Seguros de Vida de Puerto Rico

Cooperativa de Seguros de Vida de Puerto Rico (COSVI) has administered Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) since 1970. 1

Medicare Reimbursement of Pension Costs

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that COSVI claimed for
Medicare reimbursement for FYs 1996 through 2006.

Scope

We reviewed $1,801,228 of pension costs that COSVI claimed for Medicare reimbursement on
its Final Administrative Cost Proposals (FACP) for FYs 1996 through 2006. Achieving our
objective did not require that we review COSVI’s overall internal control structure. However,
we reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed fieldwork at COSVI’s office in Rio Piedras, Puerto Rico, during March and April
2008.



1
    On February 28, 2009, the contractual relationship was terminated.

                                                            1

Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. Additionally,
we reviewed COSVI’s FACPs to identify the amount of pension costs claimed for Medicare
reimbursement for FYs 1996 through 2006. We also determined the extent to which COSVI
funded CAS pension costs with contributions to the pension trust fund and accumulated
prepayment credits. We based our calculations on separately computed CAS pension costs for
the Medicare segment and the “Other” segment. The CMS Office of the Actuary calculated the
allocable CAS pension costs based on COSVI’s historical practices and on the results of our
segmentation review, “Review of the Pension Segmentation Requirements for the Qualified
Pension Plan at Cooperativa de Seguros de Vida de Puerto Rico for the Period January 1, 1996,
to January 1, 2007” (A-07-08-00271).

In performing our review, we used information that COSVI’s actuarial consulting firms
provided. The information included assets, liabilities, normal costs, contributions, benefit
payments, investment earnings, and administrative expenses. We examined COSVI’s
accounting records, pension plan documents, annual actuarial valuation reports, and Department
of Labor/Internal Revenue Service Form 5500s.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

COSVI claimed $99,244 of unallowable Medicare pension costs for FYs 1996 through 2006.
This overstatement occurred primarily because COSVI calculated pension expense using the
contributions to the pension plan instead of computing pension costs in accordance with CAS
412 and 413, as required by the Medicare contracts. In basing the pension expense on the
pension plan contributions, COSVI claimed $1,801,228 in Medicare reimbursement. We
calculated allowable pension costs for this period in accordance with CAS 412 and 413, as
required by the Medicare contracts, to be $1,701,984, a difference of $99,244.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.


                                               2

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

UNALLOWABLE PENSION COSTS CLAIMED

COSVI claimed $99,244 of unallowable Medicare pension costs for FYs 1996 through 2006.
During that period, COSVI claimed pension costs of $1,801,228 for Medicare reimbursement.
We calculated allowable pension costs based on separately computed CAS pension costs for the
Medicare segment and the “Other” segment, in accordance with CAS 412 and 413. Based on the
terms of the Medicare contracts, the allowable CAS pension costs for this period totaled
$1,701,984.

The following table compares allowable CAS pension costs with the pension costs claimed on
COSVI’s FACPs. Appendix A contains details on allowable pension costs and contributions.

            Comparison of Allowable Pension Costs and Claimed Pension Costs

                                    Medicare Pension Costs
                                    Allowable      Claimed
                   Fiscal Year      Per Audit    By COSVI          Difference
                      1996             $110,045       $88,186         $21,859
                      1997              130,780       118,976           11,804
                      1998              140,430       141,290             (860)
                      1999              141,893       152,988          (11,095)
                      2000              159,077       169,749          (10,672)
                      2001              145,869       186,205          (40,336)
                      2002              146,537       186,822          (40,285)
                      2003              141,372       188,235          (46,863)
                      2004              163,558       198,575          (35,017)
                      2005              187,627       157,163           30,464
                      2006              234,796       213,039           21,757
                       Total         $1,701,984    $1,801,228        ($99,244)

The Medicare contracts require COSVI to calculate pension costs for Medicare reimbursement
pursuant to CAS 412 and 413. However, COSVI based its claim on the contributions to the
pension plan. As a result, COSVI claimed $99,244 of unallowable pension costs.

RECOMMENDATION

We recommend that COSVI reduce its FACP pension costs by $99,244 or refund this amount to
CMS.




                                                3

AUDITEE COMMENTS

In written comments on our draft report, COSVI concurred with our recommendation. In
addition, COSVI stated that “[w]e are submitting evidence of $90,863 which was refunded to
CMS during the audit of Administrative Cost for the period October 1, 1984 to September 30,
1987. This amount will be offsetted against the unallowable pension cost of $99,244. The
difference will be reduced from our FY 2009 FACP.”

COSVI’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

The refund adjustment of $90,863 referred to by COSVI is associated with FYs 1985 through
1987, a time period that is unrelated to this review. In addition, executed closing agreements
between CMS and COSVI have finalized pension costs for these FYs. For this reason, pension
costs for FYs 1985 through 1987 are not subject to further review or adjustment. Therefore, we
maintain that COSVI reduce its FY 1996 through 2006 FACP pension costs by $99,244 or
refund this amount to CMS.




                                               4

APPENDIXES 

             ALLOWABLE MEDICARE PENSION COSTS FOR                               APPENDIX A
          COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO                               Page 1 of 7
                FOR FISCAL YEARS 1996 THROUGH 2006

                                              Total        "Other"       Medicare       Total
Date             Description                 Company       Segment       Segment       Medicare

1995     Allocable Pension Cost         1/                  $661,518       $97,365

 1996    Contributions                  2/     $941,553      $879,892      $61,661
7.50%    Discount for interest          3/      (38,008)      (35,519)      (2,489)
1/1/96   Present value contributions    4/      903,545       844,373       59,172
         Prepayment credit applied      5/      382,351       344,058       38,293
         Present value of funding       6/    1,285,896     1,188,431       97,465

1/1/96   CAS funding target             7/     973,183       875,718        97,465
         Percentage funded              8/                   100.00%       100.00%
         Funded pension cost            9/                   875,718        97,465
         Allowable interest            10/                    22,365         2,489
         Allocable pension cost        11/                   898,083        99,954
1996     Fiscal year pension cost      12/                   838,942        99,307
         Medicare LOB* percentage      13/                     1.28%       100.00%

         Allowable pension cost        14/                   $10,738       $99,307        $110,045




 1997    Contributions                       $1,211,703    $1,130,235      $81,468
7.50%    Discount for interest                  (51,914)      (48,424)      (3,490)
1/1/97   Present value contributions          1,159,789     1,081,811       77,978
         Prepayment credit applied              336,167       298,445       37,722
         Present value of funding             1,495,956     1,380,256      115,700

1/1/97   CAS funding target                   1,031,080      915,380       115,700
         Percentage funded                                   100.00%       100.00%
         Funded pension cost                                 915,380       115,700
         Allowable interest                                   27,615         3,490
         Allocable pension cost                              942,995       119,190
1997     Fiscal year pension cost                            931,767       114,381
         Medicare LOB* percentage                              1.76%       100.00%

         Allowable pension cost                              $16,399      $114,381        $130,780
                                                                          APPENDIX A
                                                                                Page 2 of 7



                                        Total        "Other"       Medicare       Total
Date             Description           Company       Segment       Segment       Medicare

 1998    Contributions                 $1,224,000    $1,157,056      $66,944
7.50%    Discount for interest            (47,685)      (45,077)      (2,608)
1/1/98   Present value contributions    1,176,315     1,111,979       64,336
         Prepayment credit applied        499,742       447,477       52,265
         Present value of funding       1,676,057     1,559,456      116,601

1/1/98   CAS funding target             1,114,902       998,301      116,601
         Percentage funded                              100.00%      100.00%
         Funded pension cost                            998,301      116,601
         Allowable interest                              22,329        2,608
         Allocable pension cost                       1,020,630      119,209
1998     Fiscal year pension cost                     1,001,221      119,204
         Medicare LOB* percentage                         2.12%      100.00%

         Allowable pension cost                        $21,226      $119,204        $140,430




 1999    Contributions                 $1,182,000    $1,128,055      $53,945
7.50%    Discount for interest            (43,575)      (41,586)      (1,989)
1/1/99   Present value contributions    1,138,425     1,086,469       51,956
         Prepayment credit applied        603,242       537,709       65,533
         Present value of funding       1,741,667     1,624,178      117,489

1/1/99   CAS funding target             1,081,502      964,013       117,489
         Percentage funded                             100.00%       100.00%
         Funded pension cost                           964,013       117,489
         Allowable interest                             16,317         1,989
         Allocable pension cost                        980,330       119,478
1999     Fiscal year pension cost                      990,405       119,411
         Medicare LOB* percentage                        2.27%       100.00%

         Allowable pension cost                        $22,482      $119,411        $141,893
                                                                          APPENDIX A
                                                                                Page 3 of 7



                                        Total        "Other"       Medicare       Total
Date             Description           Company       Segment       Segment       Medicare

 2000    Contributions                 $1,308,000    $1,249,462      $58,538
7.50%    Discount for interest            (52,746)      (50,385)      (2,361)
1/1/00   Present value contributions    1,255,254     1,199,077       56,177
         Prepayment credit applied        709,677       631,948       77,729
         Present value of funding       1,964,931     1,831,025      133,906

1/1/00   CAS funding target             1,222,585     1,088,679      133,906
         Percentage funded                              100.00%      100.00%
         Funded pension cost                          1,088,679      133,906
         Allowable interest                              19,192        2,361
         Allocable pension cost                       1,107,871      136,267
2000     Fiscal year pension cost                     1,075,986      132,070
         Medicare LOB* percentage                         2.51%      100.00%

         Allowable pension cost                        $27,007      $132,070        $159,077




 2001    Contributions                 $1,455,000    $1,411,421      $43,579
7.50%    Discount for interest            (57,161)      (55,449)      (1,712)
1/1/01   Present value contributions    1,397,839     1,355,972       41,867
         Prepayment credit applied        798,023       720,312       77,711
         Present value of funding       2,195,862     2,076,284      119,578

1/1/01   CAS funding target             1,227,965     1,108,387      119,578
         Percentage funded                              100.00%      100.00%
         Funded pension cost                          1,108,387      119,578
         Allowable interest                              15,869        1,712
         Allocable pension cost                       1,124,256      121,290
2001     Fiscal year pension cost                     1,120,160      125,034
         Medicare LOB* percentage                         1.86%      100.00%

         Allowable pension cost                        $20,835      $125,034        $145,869
                                                                         APPENDIX A
                                                                               Page 4 of 7



                                        Total       "Other"       Medicare       Total
Date             Description           Company      Segment       Segment       Medicare

 2002    Contributions                 $1,500,000   $1,472,807      $27,193
7.50%    Discount for interest             57,087      (61,309)      (1,035)
1/1/02   Present value contributions    1,557,087    1,411,498       26,158
         Prepayment credit applied      1,040,490      218,675      102,460
         Present value of funding       2,597,577    1,630,173      128,618

1/1/02   CAS funding target             1,306,131    1,177,513      128,618
         Percentage funded                             100.00%      100.00%
         Funded pension cost                         1,177,513      128,618
         Allowable interest                              9,475        1,035
         Allocable pension cost                      1,186,988      129,653
2002     Fiscal year pension cost                    1,171,305      127,562
         Medicare LOB* percentage                        1.62%      100.00%

         Allowable pension cost                       $18,975      $127,562        $146,537




 2003    Contributions                 $1,625,000   $1,611,971      $13,029
7.50%    Discount for interest             65,801       66,329         (528)
1/1/03   Present value contributions    1,690,801    1,678,300       12,501
         Prepayment credit applied      1,265,568    1,162,119      103,449
         Present value of funding       2,956,369    2,840,419      115,950

1/1/03   CAS funding target             1,418,500    1,302,550      115,950
         Percentage funded                             100.00%      100.00%
         Funded pension cost                         1,302,550      115,950
         Allowable interest                              5,926          528
         Allocable pension cost                      1,308,476      116,478
2003     Fiscal year pension cost                    1,278,104      119,772
         Medicare LOB* percentage                        1.69%      100.00%

         Allowable pension cost                       $21,600      $119,772        $141,372
                                                                          APPENDIX A
                                                                                Page 5 of 7



                                        Total        "Other"       Medicare       Total
Date             Description           Company       Segment       Segment       Medicare

 2004    Contributions                 $1,175,000    $1,172,270       $2,730
7.50%    Discount for interest            (51,727)      (77,727)        (120)
1/1/04   Present value contributions    1,123,273     1,094,543        2,610
         Prepayment credit applied      1,511,737       551,512      142,826
         Present value of funding       2,635,010     1,646,055      145,436

1/1/04   CAS funding target             1,539,369     1,393,932      145,437
         Percentage funded                              100.00%      100.00%
         Funded pension cost                          1,393,932      145,437
         Allowable interest                               1,152          120
         Allocable pension cost                       1,395,084      145,557
2004     Fiscal year pension cost                     1,373,432      138,287
         Medicare LOB* percentage                         1.84%      100.00%

         Allowable pension cost                        $25,271      $138,287        $163,558




 2005    Contributions                 $1,324,221    $1,271,396      $52,825
7.50%    Discount for interest            (53,437)      (95,128)      (2,132)
1/1/05   Present value contributions    1,270,784     1,176,268       50,693
         Prepayment credit applied      1,177,815       909,359      110,876
         Present value of funding       2,448,599     2,085,627      161,569

1/1/05   CAS funding target             1,716,315     1,554,746      161,569
         Percentage funded                              100.00%      100.00%
         Funded pension cost                          1,554,746      161,569
         Allowable interest                              20,512        2,132
         Allocable pension cost                       1,575,258      163,701
2005     Fiscal year pension cost                     1,530,215      159,165
         Medicare LOB* percentage                         1.86%      100.00%

         Allowable pension cost                        $28,462      $159,165        $187,627
                                                                                                      APPENDIX A
                                                                                                            Page 6 of 7


                                                        Total            "Other"           Medicare            Total
      Date                Description                  Company           Segment           Segment            Medicare

       2006      Contributions                         $2,300,000        $2,164,450           $135,550
      6.00%      Discount for interest                    (54,354)         (202,786)            (3,203)
      1/1/06     Present value contributions            2,245,646         1,961,664            132,347
                 Prepayment credit applied                787,204           786,774             78,446
                 Present value of funding               3,032,850         2,748,438            210,793

      1/1/06     CAS funding target                      2,115,287         1,904,494           210,793
                 Percentage funded                                           100.00%           100.00%
                 Funded pension cost                                       1,904,494           210,793
                 Allowable interest                                           28,942             3,203
                 Allocable pension cost                                    1,933,436           213,996
      2006       Fiscal year pension cost                                  1,843,892           201,422
                 Medicare LOB* percentage                                      1.81%           100.00%

                 Allowable pension cost                                      $33,374          $201,422           $234,796


   * Line of business.

FOOTNOTES

 1/ We developed the 1995 allocable pension costs in a related review of pension costs claimed for Medicare
    reimbursement by Cooperativa de Seguros de Vida de Puerto Rico (COSVI) for fiscal years (FY) 1988 through 1995
    (A-07-09-00317).

 2/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500
    reports. The contributions included deposits made during the plan year and accrued contributions deposited after the
    end of the plan year but within the time allowed for filing tax returns. We determined the contributions allocated to
    the Medicare segment during the pension segmentation review (A-07-08-00271). The amounts shown for the
    "Other" segment represent the difference between the Total Company and the Medicare segments.

 3/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to
    discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed
    the interest as the difference between the present value of contributions (at the valuation interest rate) and actual
    contribution amounts.

 4/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the
    first day of the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan year to
    have been made on the final day of the plan year, consistent with the method mandated by the Employee Retirement
    Income Security Act.

 5/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A 

    prepayment credit is created when contributions, plus interest, exceed the end-of-year Cost Accounting Standards 

    (CAS) funding target. A prepayment credit is carried forward, with interest, to fund future CAS pension costs. 

                                                                                                     APPENDIX A
                                                                                                           Page 7 of 7


 6/ The present value of funding represents the present value of contributions plus prepayment credits. This is the 

    amount of funding that is available to cover the CAS funding target measured at the first day of the plan year.


 7/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the
    Federal Acquisition Regulation (FAR) 31.205-6(j)(2)(i).

 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the plan
    year. Because any funding in excess of the CAS funding target is accounted for as a prepayment in accordance with
    CAS 412.50(c)(1) (as amended), the funded ratio may not exceed 100 percent. We computed the percentage funded
    as the present value of funding divided by the CAS funding target. For purposes of illustration, the percentage of
    funding has been rounded to four decimals.

 9/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

10/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same proportion
    as the interest on contributions bears to the present value of contributions. However, we limited the interest in
    accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that
    would accrue if the CAS funding target, less the prepayment credit, were funded in four equal installments deposited
    within 30 days after the end of the quarter.

11/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.

12/ We converted the plan year (January 1 through December 31) allocable pension costs to a FY basis (October 1
    through September 30). We calculated the FY pension costs as 1/4 of the prior year’s costs plus 3/4 of the current
    year’s costs.

13/ We calculated allowable pension costs of the Medicare segment and "Other" segment based on the Medicare line of
    business (LOB) percentage of each segment. The Medicare segment charged 100 percent of its pension costs to
    Medicare. The "Other" segment charged only a portion of its pension costs to Medicare. We determined the LOB
    percentages based upon information provided by COSVI.

14/ We computed the allowable Medicare pension cost as the FY pension cost multiplied by the Medicare LOB
    percentage. Pursuant to CAS 412 and 413, the total Medicare allowable pension costs charged to the Medicare
    contract consisted of the Medicare segment’s direct pension costs plus "Other" segment pension costs attributable to
    indirect Medicare operations.
APPENDIX B
